                             NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON. VIRGINIA 22230
                                                                    Case Closeout-
                                                                                     Page 1 of 2




      OFF~CEOF
INSPECTOR GENERAL




MEMORANDUM

Date:    ,



To:                     File No. I98090027

From:

Through:

Re:


Background:

We received allegations tha.
                            a              as purchasing non-grant related furniture and
equipment with NSF grant money, an that she was using her NSF funding to pay the
salaries of professors not performing research for the NSF grant.
                                             f
Investigation:      ,




We requested account summaries and source documentationom  rfr-                      all
equipment, books, software, travel, stipends, and no-ition         and fees. We
reviewdd the proposal budget and compared the salaries proposed to those listed in the
account summaries. We verified that the furniture and equipment purchased with NSF
money were being used for grant-related purposes.



Review of information received from
                                     T                dicated that all expenditures were
supported by source documentation. This case is c osed.
